■

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www. cockl elegalbriefs. com
No.
GUADALUPE A. WELSH,
Petitioner,
v.
FORT BEND INDEPENDENT SCHOOL DISTRICT,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
GUADALUPE A. WELSH
16106 Old Richmond Road
Sugar Land, Texas 77498
(832)265-1707
Petitioner, Pro se

RECEIVED
MAR 1 3 2020

♦

Subscribed and sworn to before me this 10th day of March, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NQTARY-State of Nebraska
RENEE J. GOSS

Ri My Comm. Exp. September 6,2023
Notary Public

Affiant

39534

SERVICE LIST

Jonathan Griffin Brush
Elizabeth R. Mylin
Rogers Morris & Grover, LLP
5718 Westheimer
Suite 1200
Houston, TX 77057
jbrush@rmgllp.com
713.960.6000
Attorneys for Respondent

